INDEX
APPENDIX
1. Judgement

A. 1

2. Opinion and Order.

A. 2

3. Motion Under 28 U.S. Code 2255

A. 6

4. Constitutional Provision and United States Code

A. 13

4

Case 7:20-cv-00049*0 Document 8 Filed 04/16/21

Page 1 of 1 PagelD 31

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
CHAD ANTHONY RAY,
Movant,

§
§
§
§

V.

§
§

UNITED STATES OF AMERICA,

§
§
§

Respondent.

NO. 7:20-CV-049-0
(NO. 7:I9-CR-010-0)

FINAL JUDGMENT
In accordance with the opinion and order signed this date,
The court ORDERS, ADJUDGES, and DECREES that all relief sought by Chad Anthony
Ray in the motion he filed under 28 U.S.C. § 2255 to vacate, set aside, or correct sentence by a
person in federal custody be, and is hereby, DENIED.
SO ORDERED on this 16th day of April, 2021.

KZJUU.
sBLged O’Connor
)
UNITED STATES DISTRICT JUDGE

/h [

*

Case 7:20-cv-00049-0 Document 7 Filed 04/16/21

Page 3 of 4 PagelD 29

IV. ANALYSIS
Movant’s ground is clearly one that could and should have been raised on appeal. It cannot
be raised here without a showing of cause and prejudice. Shaid, 937 F.2d at 232. Movant says that
he did not raise this ground before due to ineffective assistance of counsel. Doc. 6 at PagelD 22.
In particular, movant’s counsel believes that marijuana laws are constitutional. Id. Ineffective
assistance can be cause, but movant must show that (1) counsel's performance fell below an
objective standard of reasonableness and (2) there is a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceedings would have been different Strickland v.
Washington, 466 U.S. 668, 687 (1984); see also Missouri v. Frye, 566 U.S. 133,147 (2012). "[A]
court need not determine whether counsel's performance was deficient before examining the
prejudice suffered by the defendant as a result of the alleged deficiencies." Strickland, 466 U.S. at
697; see also United States v. Stewart, 207 F.3d 750, 751 (5th Cir. 2000). "The likelihood of a
different result must be substantial, not just conceivable," Harrington v. Richter, 562 U.S. 86,112
(2011), and a movant must prove that counsel's errors "so undermined the proper functioning of
the adversarial process that the trial cannot be relied on as having produced a just result." Cullen
v. Pinholster, 563 U.S. 170,189 (2011) (quoting Strickland, 466 U.S. at 686). Judicial scrutiny of
this type of claim must be highly deferential and the defendant must overcome a strong
presumption that his counsel’s conduct falls within the wide range of reasonable professional
assistance. Strickland, 466 U.S. at 689. Simply making conclusory allegations of deficient
performance and prejudice is not sufficient to meet the Strickland test. Miller v. Johnson, 200 F.3d
274, 282 (5th Cir. 2000).
In this case, movant simply makes conclusory allegations to the effect that he disagrees
with marijuana laws. That his counsel did not share his opinion is not evidence that counsel was

A.
'J

Case 7:20-cv-00049-0 Document? Filed 04/16/21

Page4of 4 PagelD 30

ineffective. Congress has the authority to regulate and criminalize marijuana under the Commerce
Clause. Gonzales v. Raich, 545 U.S. 1 (2005). Movant’s counsel cannot have been ineffective for
failing to raise a meritless argument. Clark v. Collins, 19 F.3d 959, 966 (5th Cir. 1994). Because
movant cannot show cause for his procedural default, he cannot proceed with his ground here.
Shaid, 937 F.2d at 232.
V. CONCLUSION
For the reasons discussed herein, the relief sought in movant’s motion is DENIED.
Further, pursuant to 28 U.S.C. § 2253(c), for the reasons discussed herein, a certificate of
appealability is DENIED.
SO ORDERED on this 16th day of April, 2021.

rlZJUUA
mmmm

A

Sffeed O’Connor
UNITED STATES DISTRICT JUDGE

/?■ f

in­

case 7:20-cv-00049-0 Document 6 Filed 01/04/21

Page 1 of 8 PagelD 19

AO 243 (Rev. 09/17)

MOTION UNDER 28 U.S.C § 2255 TO VACATE, SET ASIDE, OR CORRECT
SENTENCE BY A PERSON IN FEDERAL CUSTODY

United States District Court

District

Name (under which you were convicted):

Of Northern Texas, Wichita Falls Division
Docket or Case No.:

CHAD ANTHONY RAY

7:19-GR-00010-0(05)

Place of Confinement:

Prisoner No.:
59011-177

FCI LA TUNA SAT.LOWP.O. BOX 6000 ANTHONY, NM 88021

UNITED STATES OF AMERICA

Movant (include name under which convicted)

V.

CHAD ANTHONY RAY

MOTION
1.

(a) Name and location of court which entered the judgment of conviction you are challenging:
United States District Court, 1000 Umar St #203, Wichita Falls, TX 76301
■

U.S.!;iS«K!C.i COURT------NCRTilLRN DISTRICT OF TEXAS

,-j

FILED

(b) Criminal docket or case number (if you know): 7; 19-CR-00010-0(05)
2.

JAM - 4 2021

(a)Dateofthejudgmentofconviction(ifyouknow): January 24, 2020.
(b) Date of sentencing: January 24, 2020.________

CLERK, U.S. DISTRICT COURT
---------

3.

Length of sentence: Imprisoned for a term of FIFTY (50) months; Supervised rele tse ltfe(3),ycgmiTtY

4.

Nature of crime (all counts):
Count One; 21 U.S.C. § 846 Conspiracy to Distribute a Schedule I Controlled Substance (marijuana)

5.

(a) What was your plea? (Check one)
(1) Not guilty | >"|

(2) Guilty □

(3) Nolo contendere (no contest) [

|

6. (b) If you entered a guilty plea to one count or indictment, and a not guilty plea to another count or indictment,
what did you plead guilty to and what did you plead not guilty to?
!
Count One

6.

If you went to trial, what kind of trial did you have? (Check one)

Jurvl / 1

Judge only I

I

•----V.-.

7. j Did you testify at a pretrial hearing, trial, or post-trial hearing?

VesD

No£7j
Page 2 of 13

AC

Case 7:20-cv-00049-0 Document 6 Filed 01/04/21

Page 2 of 8 PagelD 20

AO 243 (Rev. 09/17)

8. " Did you appeal from the judgment of conviction?

9.

Yes [7]

NoQ

If you did appeal, answer the following:
(a) Name ofcourt:

'NJLHjjairoswgs COURIOF appeals for the fifth

(b) Docket or case number (if you know):
(c) Result:
Premised

No. 20-10145

(d) Date of result (if you know): 02/13/2020
(e) Citation to the case (if you know):
(f) Grounds raised:
Under FED. RAPP. P. 42(b), the appeal is dismissed as of February 13,

(g) Did you file a petition for certiorari in the United States S

2020, pursuant to appellant's motion.

upreme Court?

If Yes, answer the following:

Yes □

No (✓]

(1) Docket or case number (if you know):
(2) Result:
(3) Date of result (if you know):
(4) Citation to the case (if you know):
(5) Grounds raised:

10.

Other than the direct appeals listed above, have you previously filed
any other motions, petitions, or applications,
concerning this judgment of conviction in any court’

YesU
11.

!

No [✓]

Ifyour answer to Question 10 was “Yes," give the following informationfa) (1) Name ofcourt:

(2) Docket or case number (if you know):
(3) Date of filing (if you know):

"
"

~
“

Page 3 of 13

A.7

■J

i

Case 7:20-cv-00049-0 Document 6 Filed 01/04/21

Page 3 of 8 PagelD 21

AO.243 (Rev. 09/17)

12.

For this motion, state every ground on which you claim that you are being held in violation of the Constitution
laws, or treaties of the United States. Attach additional pages if you have more than four grounds. State the facts
supporting each ground. Any legal arguments must be submitted in a separate memorandum.

GROUND ONE:
(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):

‘

1. Liberty, freedom from physical restraint, IS a constitutional right
2. Marijuana is NOT a constitutional right
3. Marijuana is federally classified as a dangerous controlled substance.
4. The operation and effect of federal prosecution in the enforcement of 21 U.S.C. § 846, was the seizure of
Mr. Rays person and deprivation of his constitutional right of liberty by the bounds of prison.
5 Marijuana is not a dangerous, lethal substance for personal consumption. Marijuana has proven to be safe to use bv
adults without medical supervision. No one has died from overdosing by smoking marijuana
6. A reasonable regulated interstate commerce of this property, marijuana, does not present a substantial threat to the
nghts of others, to public safety or health, requiring the use of federal polioe power.
7. Mr. Ray plead guilty, was convicted, deprived of his liberty, without compelling government reasons for a
victimless crime.
8. Ground One is not about selective, arbitrary enforcement violating due process of law

(b) Direct Appeal of Ground One:
(l) If you appealed from the judgment of conviction, did you raise this issue?
NoQ
(2) If you did not raise this issue in your direct appeal, explain why:

(c) Post-Conviction Proceedings:
(1) Did you raise this issue in any post-conviction motion, petition, or application?

YesQ

No|Z3

(2) If you answer to Question (c)( 1) is “Yes,” state:
Type of motion or petition :
Name and location of the court where the motion or petition was filed:
Docket of case number (if you know):
Date of the court’s decision:
Result (attach a copy of the court’s opinion or order, if available):

(3) Did you receive a hearing on your motion, petition, or application?

Yesj

|

No

0
PageS of 13

A,?

V.9

Case 7:20-cv-00049-0 Document 6 Filed 01/04/21

Page 4 of 8 PagelD22

AO 243 (Rev. 09/17)

Type of motion or petition:
Name and location of the court where the motion or petition was filed:
Docket or case number (if you know):
Date of the court ’s decision:
Result (attach a copy of the court’s opinion or order, if available):

(3) Did you receive a hearing on your motion, petition, or application?

Yes I 1

NoFC]

(4) Did you appeal from the denial of your motion, petition, or application?
Yes | |
No0
(5) If your answer to Question/(c)(4) is “Yes,” did you raise the issue in the appeal?

Yes |

}

NoM

(6) If your answer to Question (cK4) is “Yes,” state:
Name and location of the court where the appeal was filed:
Docket or case number (if you know):
Date of (he court’s decision:
Result (attach a copy of the court’s opinion or order, if available):

(7) If your answer to Question (c)(4) or Question (c)(5) is “No,” explain why you did not appeal or raise this
issue:

;

13.

Is there any ground in this motion that you have not previously presented in some federal court? If so, Which
ground or grounds have not been presented, and state your reasons for not presenting them:
Ground One has not been raised because of “ineffective assistance of counsel.” that was prejudicial.
1 Counsel believes the manjuana laws are constitutional because marijuana is not a fundamental right.
2. Counsel treats laws that authorize the use of police power as a political question thus violating the solemn oath to
the court to support the Constitution of the United States.
3. Counsel did not protect the right of Mr. Ray to be secure against unreasonable deprivation of his constitutional
right of liberty, freedom from physical restraint and his right of property secured by Amendments IV and V
4. Counsel doesn't know criminal laws are an Article III justiciable controversy ripe for adjudication by this court under
strict scrutiny standard of review.
5. It is not in the best interest for counsel to raise ground one.

I

s

f

I

I
i
%

f
i

Page 10 of 13

/f.9

!
5

f
I;
B

f
f

■i-1

Case 7:20-cv-00049-0 Document 6 Filed 01/04/21

Page 5 of 8 PagelD 23

AO 243 (Rev. 09/17)

14.

Do you have any motion, petition, or appeal now pending (filed and not decided yet) in any court for the
you are challenging?
Yes Q]
No |~7]
If “Yes,” state the name and location of the court, the docket or case number, the type of proceeding, and the
issues raised.

15,

Give the name and address, if known, of each attorney who represented you in the following stages of the
judgment you are challenging:
(a) At the preliminary hearing:
■(b) At the arraignment and plea:
(c) At the trial:
(d) At sentencing:
Law UTtice ot ureg ivierKie 14U/ ytn at wicmta t-aus, t a /tsaui

(e) On appeal:
Law utnoe ot ureg Memie i4U/«tn stwicmta nans, ia /eaui

(0 In any post-conviction proceeding:
(g) On appeal from any ruling against you in a post-conviction proceeding:

16.

17.

Were you sentenced on more than one court of an indictment, or on more than one indictment, in the same court
and at the same time?
Yes | |
No | </ |
Do you have any future sentence to serve after you complete the sentence for the judgment that you are
challenging?
Yes
No [ ■/ |

i
l

(a) If so, give name and location of court that imposed the other sentence you will serve in the future:

ii
8

1
(b) Give the date the other sentence was imposed:
■(c) Give the length of the other sentence:
(d) Have you filed, or do you plan to file, any motion, petition, or application that challenges the judgment or
sentence to be served in the future?

Yes [

|

No \\Z\
Page ft of 13

4 ,/o

f
f
f

1S
i

a

Case 7:20-cv-00049-0 Document 6 Filed 01/04/21

Page 6 of 8 PagelD 24

The writ, or order to show cause shall be directed to the person having custody of the
person detained. It shall be returned within three days unless for good cause additional
time, not exceeding twenty days, is allowed.
The person to whom the writ or order is directed shall make a return certifying the true
cause of the detention.
When the writ or order is returned a day shall be set for hearing, not more than five days
after the return unless for good cause additional time is allowed.
Unless the application for the writ and the return present only issues of law the
person to whom the writ is directed shall be required to produce at the hearing the body of the
person detained.
The applicant or the person detained may, under oath, deny any of the facts set forth in the
return or allege any other material facts.
The return and all suggestions made against it may be amended, by leave of court before
or after being filed.
The court shall summarily hear and determine the facts, and dispose of the matter as law
and justice require.
Dated:
CHAD ANTHONY jfe\Y
#59011-177
FCI LA TUNA
SATELLITE CAMP
P.O. BOX 8000
ANTHONY, NM 88021

rf.H

y

Case 7:20-cv-00049-0 Document 6 Filed 01/04/21

Page 7 of 8 PagelD 25

AO 243 (Rev: 09/17)

Therefore, movant asks that the Court erant the following relief:
io declare nuerty is treeaom from

physical restraint ana tne u.s. congress proscribing manjuana as a controiiea suostance was
arbitrary and unreasonable regulation of property, depriving Mr. Ray’s liberty without compelling reasons, without due process of
law contravening 4th and 5th Amendments of the U S. Constitution thus vacating his conviction and sentence.

or any other relief to which'movant may be entitled.

~~~

~

~~

"

~

Signature of Attorney (if any)

I declare (or certify, verify, or state) under penalty of peijury that the foregoing is true and correct and that this Motion
under 28 U.S.C, § 2255 was placed in the prison mailing system on

iZJjLa)/£LO

(month, date, year)

Executed (signed) on

(date)

yf
/
!
f
E
|

SignaturdofMovani
If the person signing is not movant, state relationship to movant and explain why movant is not signing this motion.

f
;■

!
;
!
I
S
I
I
I
|
Page 13 of 13

$) $

I
s

I
l!

APPENDIX
CONSTITUTIONAL PROVISIONS
Article I. Section 9, Clause 2, of the United States Constitution provides: The Privilege of the Writ of
Habeas Corpus shall not be suspended, unless when in Cases of Rebellion or Invasion the public Safety
may require it.
Article III Section 2. The Judicial Power shall extend to all Cases, in Law and Equity, arising under this
Constitution, the Laws of the United States, and Treaties made, or which shall be made, under their
Authority;—to Controversies to which the United States shall be a Party;
Amendment IV The right of the people to be secure in their persons, houses papers, and effects against
unreasonable searches and seizures shall not be violated,
Amendment IV "The right of the people to be secure in their persons, houses, papers arid effects,
against unreasonable searches and seizures, shall not be violated,...
Amendment V No person shall be ... deprived of life, liberty, or property, without due process of law;

UNITED STATES CODE
28 U.S. Code § 2241,
(a) Writs of habeas corpus may be granted by the Supreme Court, any justice thereof, ...
(c)The writ of habeas corpus shall not extend to a prisoner unless—
(1) He is in custody under or by color of the authority of the United States ...
(2) He is in custody for an act done ... in pursuance of an Act of Congress,
(3) He is in custody in violation of the Constitution or laws or treaties of the United States ...
28 U.S. Code § 2242,
If addressed to the Supreme Court, a justice thereof or a circuit judge it shall state the reasons
for not making application to the district court of the district in which the applicant is held.
28 U.S. Code § 2243
A court, justice or judge entertaining an application for a writ of habeas corpus shall forthwith
award the writ or issue an order directing the respondent to show cause why the writ should not be
granted, unless it appears from the application that the applicant or person detained is not entitled
thereto.
The writ, or order to show cause shall be directed to the person having custody of the person
detained. It shall be returned within three days unless for good cause additional time, not exceeding
twenty days, is allowed.
The person to whom the writ or order is directed shall make a return certifying the true cause of
the detention.

A. 13

When the writ or order is returned a day shall be set for hearing, not more than five days after
the return unless for good cause additional time is allowed.
Unless the application for the writ and the return present only issues of law the person to whom
the writ is directed shall be required to produce at the hearing the body of the person detained.
The applicant or the person detained may, under oath, deny any of the facts set forth in the
return or allege any other material facts.
The return and all suggestions made against it may be amended, by leave of court, before or
after being filed.
The court shall summarily hear and determine the facts, and dispose of the matter as law and
justice require
28 U.S. Code § 2255. Federal custody; remedies on motion attacking sentence
(a ) A prisoner in custody under sentence of a court established by Act of Congress claiming the right to
be released upon the ground that the sentence was imposed in violation of the Constitution or laws of
the United States, or that the court was without jurisdiction to impose such sentence, or that the
sentence was in excess of the maximum authorized by law, or is otherwise subject to collateral attack,
may move the court which imposed the sentence to vacate, set aside or correct the sentence.

21 U.S. Code SUBCHAPTER I—CONTROL AND ENFORCEMENT
21 U.S.C. § 846 Conspiracy to Distribute a Schedule I Controlled Substance
Any person who attempts or conspires to commit any offense defined in this subchapter shall be subject
to the same penalties as those prescribed for the offense, the commission of which was the object of
the attempt or conspiracy.

A. 14

